Report No. D-2008-106     August 21, 2008




  U.S. European Command Headquarters
   Government Purchase Card Controls
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AO                    Approving Official
APC                   Agency Program Coordinator
CJCSI                 Chairman of the Joint Chiefs of Staff Instruction
DFAR                  Defense Federal Acquisition Regulation
EUCOM                 U.S. European Command Headquarters
FAR                   Federal Acquisition Regulation
GPC                   Government Purchase Card
OIG                   Office of Inspector General
ORF                   Official Representation Funds
USACCE                U.S. Army Contracting Command-Europe
USAREUR               U.S. Army Europe
                             INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704




                                                                            June 24, 2008

MEMORANDUM FOR COMMANDER, U.S. EUROPEAN COMMAND
                 HEADQUARTERS
               ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               COMMANDER, U.S. ARMY CONTRACTING COMMAND
                 EUROPE

SUBJECT: Report on U.S. European Command Headquarters Government Purchase
         Card Controls (Report No. D2008-106)


      We are providing this report for review and comment. We considered
management's comments on a draft of this repOli when preparing the final report.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The U.S. Atmy Contracting Command Europe comments were patiially responsive. We
request additional comments on Recommendation A.2.a. As a result of management
comments, we revised A.l.b. to clarify our intention. Therefore, we request that the
Commander, U.S. European Command and Commander, U.S. Army Contracting
Command Europe provide comments on Recommendations Al.b. and A2.a respectively
by July 24, 2008.

        If possible, please send management comments in electronic fonnat (Adobe
Acrobat file only) to AUDCOL@dodig.mil. Copies of the management comments must
contain the actual signature ofthe authorizing official. We cannot accept the I Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. James L. Kornides at 614-751-1400, ext. 211 or Mr. John K. Issei at 614-751-
1400, ext. 212. See Appendix C for the repOli distribution. The team members are listed
inside the back cover.


                                      f~\J Q- J11()M~f{
                                       Patricia A Marsh, CPA
                                     Assistant Inspector General
                                  Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-106                                                        June 24, 2008
   (Project No. D2007-D000FJ-0179.000)

            U.S. European Command Headquarters Government
                         Purchase Card Controls

                                  Executive Summary

Who Should Read This Report and Why? DoD civilians and military personnel who
are authorized to use a Government Purchase Card or supervise any aspect of the
Government Purchase Card Program should read this report. This report discusses the
internal controls and the management of the Government Purchase Card Program at the
U.S. European Command Headquarters (EUCOM).

Background. Section 2784, title 10, United States Code requires periodic audits to
identify potentially fraudulent, improper, and abusive uses of purchase cards; any
patterns of improper cardholder transactions; and categories of purchases that should be
made by means other than purchase cards.

During the 13-month period ending April 2007, EUCOM incurred 4,025 purchase card
transactions valued at more than $2.4 million. We judgmentally selected
278 transactions, valued at $349,445, completed during that period, for review.

Results. EUCOM purchase cardholders did not adequately adhere to guidance on the use
of the Government Purchase Card for most of the transactions in our sample. Of the
278 transactions that we reviewed:

   x   documentation did not exist or was insufficient for 123 of the transactions,

   x   use of the purchase card was not proper for 40 of the transactions, and

   x   an abuse of the purchase card occurred for one of the transactions.

EUCOM approving officials need to communicate and enforce existing requirements to
minimize the potential for fraud, waste, and abuse. Also, the agency program coordinator
needs to establish an effective oversight program to improve performance (finding A).

EUCOM did not follow the Joint Chiefs of Staff Instruction or EUCOM guidance when
using Official Representation Funds. EUCOM personnel did not verify the availability
of funds for 39 of the 41 purchases we examined. Additionally, EUCOM personnel did
not provide required documentation to fully support the Official Representation Funds
purchases we reviewed. Although gift items were not a part of our sample, during testing
of the Official Representation Funds process we observed that EUCOM inappropriately
retained 3,349 gift items (valued at more than $28,000) in inventory. EUCOM needs to
improve its controls over the use of Official Representation Funds to minimize the risk of
improper use of those funds (finding B).
Management Comments on the Findings and Audit Response. The Chief of Staff,
U.S. European Command generally concurred with the audit findings and the intent of
the recommendations. He stated that as a result of the audit, measures were taken to
better communicate and enforce standards throughout the command. He believed the
measures would ensure greater transparency and strengthen internal controls already in
place. As a result of some of his detailed comments, we modified part of the report and
one of our recommendations. Therefore, we are requesting additional comments from the
Chief of Staff to the revised recommendation in the final report by July 21, 2008.

We received comments from the Director, U.S. Army Contracting Command-Europe that
were not fully responsive to one of our recommendations. Therefore, we are requesting
that the Director reconsider his position on one recommendation and provide additional
comments by July 21, 2008.

See the Finding section for the complete discussion of the management actions.




                                           ii
Table of Contents

Executive Summary                                                              i

Background                                                                     1

Objectives                                                                    2

Review of Internal Controls                                                   2

Findings
     A. Use of and Controls Over Government Purchase Cards                     3
     B. Use of and Controls Over Official Representation Funds Transactions   13

Appendixes
     A. Scope and Methodology                                                 21
     B. Prior Audit Coverage                                                  22
     C. Report Distribution                                                   24

Management Comments
     U.S. European Command                                                    27
     Department of the Army                                                   37
Background
    Section 2784, title 10, United States Code requires the DoD Office of the
    Inspector General (OIG) to perform periodic audits of the DoD Government
    Purchase Card Program (GPC) to identify:

           (A) potentially fraudulent, improper, and abusive use of purchase cards;

           (B) any pattern of improper cardholder transactions, such as purchases of
               prohibited items; and

           (C) categories of purchases that should be made by means other than the
               purchase card in order to better aggregate purchases and obtain lower
               prices.

    Use of the Government Purchase Card. According to the Federal Acquisition
    Regulation (FAR) Subpart 13.2, “Actions at or below the Micro-Purchase
    Threshold,” the GPC is the preferred method to purchase and pay for “micro-
    purchases.” A micro-purchase is an acquisition of supplies or services using
    simplified acquisition procedures. Use of the purchase card as a procurement and
    payment tool for micro-purchases is explained in FAR 13.301(c),
    “Governmentwide Commercial Purchase Card.” The micro-purchase threshold
    during our period of review was initially $2,500. The threshold was increased to
    $3,000 in September 2006. The increased threshold does not affect the results of
    our review. The GPC may also be used in excess of the micro-purchase threshold
    up to $25,000 for purchases made outside the United States, for use outside the
    United States, in accordance with DFARS 213.301.

    U.S. European Command. On August 1, 1952, DoD established the European
    Command Headquarters (EUCOM) as a unified command representing all 3
    Military Departments in the European Theater. The Command employs military
    personnel from the Army, Navy, Air Force, and Marine Corps. The headquarters
    for EUCOM is at Patch Barracks, Stuttgart, Germany. The headquarters staff
    consists of Army, Navy, Air Force, and Marine Corps officers and enlisted
    personnel, plus civilian employees. There were 135 GPC cardholders at EUCOM
    in April 2007. During the 13-month period that the audit covered, ending April
    2007, EUCOM incurred 4,025 purchase card transactions.

    U.S. Army Contracting Command Europe. The U.S. Army Contracting
    Command, Europe (USACCE) serves as the Principal Assistant Responsible for
    Contracting and provides the full range of contracting support throughout U.S.
    Army Europe (USAREUR). In addition, USACCE is the proponent for the GPC
    Program in USAREUR. The level IV Agency Program Coordinator (APC) for
    EUCOM is located at the Regional Contracting Office (RCO) in Seckenheim,
    Germany. The APC for EUCOM is required to conduct GPC training for
    prospective cardholders and approving officials, process GPC applications,
    conduct surveillance of cardholders, and maintain effective oversight of the
    EUCOM GPC Program.



                                        1
Objectives
     Our audit objective was to assess whether U.S. European Command Headquarters
     was in compliance with applicable laws and regulations that governed use of
     GPCs. We also reviewed internal controls over use of the GPC and Official
     Representation Funds. See Appendix A for a discussion of the scope and
     methodology.


Review of Internal Controls
     We identified internal control weaknesses for EUCOM as defined by DoD
     Instruction 5010.40, “Manager’s Internal Control Program Procedures,”
     January 4, 2006. EUCOM did not have adequate internal controls over the use of
     the GPC Program and its Official Representation Funds. Implementing
     Recommendations A.1.a., A.1.b., A.2.a., A.2.b., B.1.a., B.1.b., B.1.c., B.1.d.,
     B.1.e., B.1.f., B.2, and B.3 will improve the overall controls over the use of the
     GPCs. A copy of the report will be provided to the senior official responsible for
     internal control at EUCOM.




                                         2
                   A. Use of and Controls Over Government
                      Purchase Cards
                   European Command Headquarters purchase cardholders did not
                   adequately adhere to guidance on the use of the Government Purchase
                   Card for most of the transactions in our sample. Of the 278 transactions
                   that we reviewed:

                        •    documentation did not exist or was insufficient for 123 of the
                             transactions,

                        •    use of the purchase card was not proper for 40 of the transactions,
                             and,

                        •    an abusive use of the purchase card occurred for one of the
                             transactions.

                   We attribute these irregularities to European Command Headquarters
                   approving officials (AOs) not performing effective reviews and not
                   enforcing regulatory requirements. Additionally, the Agency Program
                   Coordinator at Regional Contracting Office Seckenheim did not maintain
                   effective oversight of the European Command Headquarters Government
                   Purchase Card Program. Unless the overall purchase card control
                   environment is strengthened and management engages in proactive
                   oversight, the potential for fraud, waste, and abuse will not be minimized.


Criteria
           DoD Guidance. “Department of Defense Government Charge Card Guidebook
           for Establishing and Managing Purchase, Travel, and Fuel Card Programs,”
           January 20, 2006, was published to help DoD personnel establish and manage
           charge card programs.

           Army Regulation AR-715-xx. 1 Department of the Army Regulation AR-715-
           xx, “Government Purchase Card Program,” revised March 21, 2006, establishes
           policies and procedures required to implement, maintain, and operate an effective
           GPC Program. The Regulation delegates the responsibility for the GPC Program
           to the Chief of Contracting Offices. Because EUCOM GPCs are issued by
           USACCE, EUCOM is required to follow established Army procedures for use of
           the card and falls under the oversight responsibility of the APC at USACCE.

           Definitions. The Government Accountability Office’s Purchase Card Audit
           Guide uses the following definitions when describing GPC misuse.



1
    Army Regulation AR-715-xx is a draft regulation.

                                                       3
          •   An improper purchase is one that is for Government use but is not
              permitted by law, regulation, or organizational policy.

          •   An unauthorized purchase is a purchase of goods or services that is
              unauthorized and intended for personal use or gain.

          •   An abusive purchase is a purchase of authorized goods or services that is
              excessive, for a questionable Government need, or both.


Purchase Card Transactions Reviewed
     We judgmentally selected 278 purchase card transactions (valued at $349,445) for
     review. EUCOM purchase cardholders and AOs did not ensure that the majority
     of these transactions satisfied GPC regulatory guidance. Of 278 transactions,
     164 (valued at $134,370) had irregularities. Irregularities include purchases
     lacking supporting documentation, improper purchases, and abusive purchases, as
     shown in Table 1.


                            Table 1. Irregular Transactions
                       Number of
                                         Amount                         Description
                      Transactions
 Missing or
                                                          Undocumented or incomplete
 Insufficient             123                  $ 82,161
                                                          documentation for transaction.
 Documentation
                                                          Purchased item not authorized by
 Improper Purchase         40                    50,417
                                                          regulations.
                                                          Purchase of unnecessary or excessive
 Abusive Purchase           1                     1,792
                                                          items.
  Total                   164                  $134,370


Purchase Card Documentation
     Army Regulation AR-715-xx. Army Regulation AR-715-xx, “Government
     Purchase Card Program,” prescribes policies, guidance, responsibilities, and
     procedures associated with the use of the GPC. The regulation applies to all U.S.
     Army organizations, units, and activities.

     Army Regulation AR-715-xx also requires that approving officials and
     cardholders retain supporting documentation for at least 6 years and 3 months.
     Maintaining documentation is essential to ensuring that an adequate audit trail
     exists.

     EUCOM Supporting Documentation. EUCOM could not provide or locate
     required supporting documentation for 123 transactions, totaling $82,161.
     EUCOM did not provide the documentation, nor was it located in the cardholder
     or AO files provided to us. For example, for 22 sample transactions, EUCOM did
                                           4
                                                                                      Attachment
      not provide supporting documentation. In addition, for 101 sample transactions,
      some of the key documents, such as the purchase request, invoice, or receipt, were
      not available. In several cases, the responsible cardholder told us that purchase
      requests required by Army Regulation AR-715-xx had not been prepared. Rather,
      the cardholders made the purchase based on an oral request or by direction of a
      senior official. Without a purchase request, EUCOM could not document the
      Government need, requester, required authorization, and pre-purchase
      certification of fund availability.


Improper Transactions
      Our review disclosed that 40 of the transactions were improper. The Government
      Accountability Office’s GPC Audit Guide defines an improper transaction as one
      that is for Government use but is not permitted by law, regulation, or
      organizational policy. See Table 2 for details on the 40 improper transactions.


                           Table 2. Improper Transactions
                      Number of
                                         Amount                     Description
                     Transactions
 Failure to Obtain                                    Purchase made without required
 Pre-purchase             16            $ 18,980      approval or approval obtained after-the-
 Approvals                                            fact in violation of Army policy.
 Appropriation                                        Appropriated funds used for the
                          12              19,919
 Issues                                               purchase of personal gifts.
 Split
                           3               1,907      Separate charges for single purchase.
 Procurements
 Foreign Tax Paid          7               1,184      Tax improperly paid.
 Erroneous Charge          1               1,601      Billed twice for same item.
 Unauthorized Use          1               6,826      Card used by unauthorized personnel.
  Total                   40             $ 50,417



      Pre-purchase Approval. Army Regulation AR-715-xx states that the purchase
      of certain items is prohibited unless a specified agency official approves it in
      advance. Failure to obtain any required approval prior to purchase may result in
      the cardholder or AO reimbursing the Army for the purchase price of the
      unapproved item. Items that require pre-purchase approval include the
      procurement of information technology. Cardholders must obtain prior approval
      from the installation’s Information Management Office before purchasing
      information technology services, computer equipment, and software. This
      requirement for prior approval includes network equipment, printers, data storage
      devices, other computer peripherals and related software, and information
      technology services.



                                          5
                                                                                  Attachment
EUCOM cardholders circumvented this required internal control on 11 occasions
by purchasing computer equipment, software, and peripheral equipment totaling
$14,604, without the required pre-purchase approval. For 5 sample transactions
(valued at $4,376), the cardholder first made a purchase and later obtained
required approvals.

Appropriation Issues. As a general rule, appropriated funds may not be used for
the procurement of personal gifts or give-away items unless there is specific
statutory authority to do so. For 12 transactions (valued at $19,919), the
Command Staff purchased EUCOM commemorative coins to give away.
EUCOM did not maintain inventory records and controls to monitor distribution
of the coins. Also, EUCOM did not maintain records regarding how the coins
were distributed. One unit that used its GPC to purchase EUCOM
commemorative coins operated a snack bar where, in addition to sodas and candy
bars, EUCOM commemorative coins were sold. During the audit, EUCOM could
not provide information on whether the commemorative coins sold by the activity
were the same coins obtained with the purchase card. EUCOM needs to fully
investigate how these coins were obtained.

Split Procurements. The splitting of procurements is the intentional breakdown
of a known requirement or purchase amount to stay within a cardholder’s
delegated or authorized spending limit and is a violation of Federal regulation.
For one sample transaction the cardholder provided documentation that showed
that the original purchase request that the AO approved was for procuring seven
air conditioner units. The value of the seven air conditioners was $2,700.
Because the cardholder’s single purchase limit was $2,500, the cardholder split
the procurement and made two purchases, minutes apart—one purchase for three
air conditioners valued at $1,157 and one purchase for four air conditioners
valued at $1,543.

Foreign Tax Paid. The U.S. Government has Status of Forces Agreements in
place with its host nations. The European Status of Forces Agreement provides
for the exemption of foreign taxes on all purchases from the host nation’s
economy. However, EUCOM cardholders inappropriately paid foreign tax
(“value added tax,” referred to as “VAT” in Germany) on 7 sample transactions
totaling of $1,184.

        Management Comments to Foreign Tax. In response to the draft of this
report, the USACE requested that we consider that the vendor is under no
obligation to accept the tax relief, and therefore, there may be situations where the
tax will have to be paid in order to obtain the required goods. Furthermore, in
some instances we need to recognize the limited source pool of vendors overseas
who accept credit cards. Although we stand by the results of our finding, it is
duly noted that there may be circumstances in which the VAT tax may have to be
paid.

Erroneous Charge. One of our sample transactions (valued at $1,601) was for
framed artwork from The Great American Picture Company, a distributor for
Capitol Supply (the manufacturer). The cardholder became dissatisfied with the
service she received from the distributor and called the manufacturer to fill the
order. Both The Great American Picture Company and Capitol Supply billed the

                                      6
                                                                         Attachment
     cardholder for the same order. The double billing was not identified during either
     the cardholder or the AO reconciliation of purchases. This transaction occurred
     in August of 2006, and the erroneous charge was not identified until this audit, in
     July 2007. The AO is now in the process of recovering the overcharge from the
     distributor.

     Unauthorized Use. One of our sample transactions (valued at $6,826) was for
     the purchase of 3 classified shredders made by an unknown person after the
     authorized cardholder left Government service. EUCOM conducted an informal
     investigation into the purchase but was unable to determine who purchased the
     shredders or who approved the purchase of the shredders. The informal
     investigation concluded that the intent of the purchase was not one of deceit or to
     commit fraud, as EUCOM could account for all items. An additional purchase
     was made with this card after the cardholder left the Government that was not
     investigated.


Abusive Transaction
     The GAO GPC Audit Guide defines an abusive purchase as the purchase of
     authorized goods or services that are excessive or for a questionable need. Our
     review disclosed 1 transaction in which the GPC was used to purchase 8
     television sets valued at $1,792.80. The purchase request and justification
     authorized the procurement of only seven televisions. However, the purchase
     request for seven televisions was manually altered to a quantity of eight, and eight
     televisions were actually purchased. At the time of our audit, nearly a year after
     the purchase of the televisions, the activity purchasing the televisions could locate
     only seven of the eight televisions. Three of the eight televisions were still
     unused and in their original boxes at the time of audit, and we concluded that
     there was questionable need for the items.

     In addition to the questionable need for these items, we found that the televisions
     were not recorded on EUCOM property records. Army Regulation AR-715-xx
     requires AOs to ensure that nonexpendable property and sensitive or highly
     pilferable items be properly recorded on Government property records.
     Television sets are highly pilferable. As such, EUCOM should determine the
     need, location, and accountability for all eight televisions and ensure that they are
     recorded on property records and distributed only where needed.


Causes of Transaction Irregularities
     EUCOM AOs did not adhere to Army guidance or institute effective procedures
     and controls over its GPC Program. Also, the APCs for the EUCOM GPC
     Program did not provide effective oversight of the program.

     AO Responsibilities. Army Regulation AR-715-xx requires that AOs be
     responsible for oversight of purchase cardholders. An AO’s primary
     responsibility involves GPC administration for cardholder accounts, including

                                           7
                                                                              Attachment
approval or disapproval of all purchases, verification of funds availability,
certification of invoices, and surveillance of all cardholders under the AO’s
purview. Other responsibilities include ensuring that:

   •   transactions are necessary to support the cardholder’s work area and
       Government purchases are permitted in accordance with GPC policy and
       guidance,

   •   billing statements are certified within established timeframes,

   •   the Property Book Officer is notified of all accountable property acquired,

   •   each cardholder fulfills his or her responsibilities related to the GPC, and

   •   a copy of each billing statement and all original supporting documentation
       is retained for 6 years and 3 months after final payment.

The results of our review indicated that the AOs at EUCOM were not performing
these responsibilities fully. Cardholders made improper purchases and did not
maintain complete supporting documentation for those purchases. AOs that were
required to monitor these purchases approved them without adequately
scrutinizing them.

APC Responsibilities. The APC for the EUCOM GPC Program is at RCO
Seckenheim. The APC is responsible for implementing and administering the
EUCOM GPC Program, establishing policy and guidance, conducting training,
and monitoring GPC usage. Specific responsibilities include:

   •   developing and implementing local procedures to identify and make
       cardholders aware of items that the local command prohibits from
       purchase with the GPC,

   •   ensuring that cardholders and AOs have completed mandatory training
       and maintaining records of the training received, and

   •   performing annual oversight reviews to ensure that AOs adhere to policies
       and procedures.

Because of the extent of irregularities found at EUCOM, we visited RCO
Seckenheim to discuss its oversight responsibilities of the EUCOM GPC
Program. RCO Seckenheim management advised us that they performed their
oversight through electronic surveillance of purchases and correspondence
whenever a purchase was questioned. RCO Seckenheim did not review files at
EUCOM to ensure proper documentation of purchases, nor did they routinely
review original supporting documentation. RCO Seckenheim cannot adequately
perform its monitoring responsibilities of EUCOM without a review of all
original supporting documentation, including receipts, logs, invoices, and
approvals. Additionally, RCO Seckenheim did not maintain a complete record of
reviews of EUCOM purchase card transactions.



                                     8
                                                                         Attachment
    The GPC surveillance conducted by RCO Seckenheim, the APC for the EUCOM
    GPC Program, was ineffective. Unless the overall purchase card control
    environment is strengthened and management engages in proactive oversight, the
    potential for fraud, waste, and abuse will not be minimized.


Management Comments on the Finding and Audit Response
    Management Comments on the Internal Controls for Computer Equipment.
    The Chief of Staff, European Command stated that he could not identify or verify
    the computer purchases or lack of preapprovals. However, he has revised the
    GPC guidance, which now includes a standard cardholder purchase form that
    requires preapproval of computer equipment.

    Audit Response. The course of action taken by EUCOM as a step in improving
    the internal controls over the purchase of all computer equipment and related
    components is responsive to our recommendation

    Management Comments on Coin Purchases. The Chief of Staff concurred
    with the finding. He stated that to be able to substantiate the 12 transactions
    reported, he needed specific examples. In addition, he stated that the EUCOM
    commemorative coins sold in the snack bar were not purchased with appropriated
    funds. However, as a result of the audit visit, he instituted a log to document all
    coin purchases sold at the snack bar.

    Audit Response. The course of action taken by EUCOM is responsive to the
    audit recommendation.

    Management Comments on the Repair of Leased Vehicles Using the GPC.
    The Chief of Staff non-concurred with the finding. He stated that the vehicles
    mentioned in the report were Government owned vehicles purchased with
    Defense Security Cooperation Agency funds.

    Audit Response. As a result of management comments, we deleted the
    paragraph in the body of the report that discussed leased vehicles and revised the
    overall table summarizing the results of our finding.

    Management Comments on the Split Disbursement. The Chief of Staff non-
    concurred with the finding. He stated that the cardholder was unaware of the total
    cost due the unusually high shipping costs charged by the vendor without
    notifying the cardholder. He also stated that the vendor split the purchase without
    notifying the cardholder. This transaction was identified by the AO, who notified
    the cardholder and the RCO in Seckenheim, however, the purchase had already
    been shipped. The Chief of Staff stated that no items will be charged in the future
    unless all costs are known upfront.

    Audit Response. We agree with the management comments that the split
    disbursement did not originate with the cardholder. As a result, we deleted the
    paragraph in the body of the report that identified the split disbursement as a
    cardholder issue.

                                         9
                                                                           Attachment
    Management Comments on Foreign Tax. The Chief of Staff stated that the tax
    relief program will be reemphasized in the updated GPC directive. In addition,
    all cardholders and billing officials will receive additional training.

    Audit Response. We agree with the course of action taken by EUCOM.

    Management Comments on Double Billing. The Chief of Staff concurred with
    the finding and stated that the cardholders account has been credit for the
    overcharge.

    Management Comments on Unauthorized Use of Card. The Chief of Staff
    concurred with the finding. He stated that the card in question has been destroyed
    and they had conducted an informal investigation that resulted in instituting a
    more stringent management control system. He further stated that as a result of
    their pre-management control inspection of the GPC in March 2008, all
    deficiencies identified had been resolved. EUCOM planned to incorporate an
    annual GPC inspection of its management controls.

    Management Comments on the Purchase of Eight Televisions. The Chief of
    Staff nonconcurred with this finding. He agreed that the original purchase was
    for seven televisions but had later been manually changed to reflect a purchase of
    eight. The Chief of Staff admitted that the additional television purchase was not
    submitted for to the AO for prior approval. However, he stated that the total
    purchase cost for eight televisions was less than the original purchase request of
    the seven televisions. Furthermore, although the Chief of Staff agreed that only
    seven of the eight televisions could be located during our audit, he noted that the
    eight televisions were located in an area under construction, which prevented
    access to the location of the eighth. He stated that all eight televisions were
    inventoried by serial number and that the information was provided to our office.
    In addition, he argued that the televisions did not need to be placed on EUCOM’s
    property records, because the minimum value requirement for recording
    equipment was $5,000. Finally, the Chief of Staff did not agree that the
    televisions were a highly pilferable item, because of their size, weight, and the
    fact that they were located in a Sensitive Compartmentalized Information Facility
    and were secured. However, he stated that all of the televisions serial numbers
    and locations are maintained.

    Audit Response. We believe that the cardholder should have obtained approval
    prior to the purchase being made. Additionally, we do not agree that the
    television sets were not pilferable. However, we believe the action taken to
    maintain all serial numbers and locations as part of the tracking system will
    improve the process


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendations. As a result of management comments, we revised
    draft Recommendation A.1.b to clarify the nature of the actions needed to
    investigate the purchase and sale of commemorative coins.
                                        10
                                                                           Attachment
A.1. We recommend that the Commander of the European Command
Headquarters:

      a. Require cardholders and approving officials to follow the proper
procedures when using the Government Purchase Card, as outlined in Army
Regulation AR-715.xx.

       Management Comments. The Chief of Staff, U.S. European Command
Headquarters generally concurred with the recommendation. He stated that a
database was implemented to monitor cardholder and approving official training
and surveillance and that visits were made to cardholders to provide assistance
and review files. He also said that the European Command Government Purchase
Card directive would be updated.

       Audit Response. The response from the Chief of Staff was acceptable,
and we consider his actions to be responsive to this recommendation.

        b. Designate an independent party not connected directly with the
Commander, European Command Headquarters to investigate the purchase
and sale of commemorative coins at European Command Headquarters.
This designee should also investigate the purchase and accountability of the
eight televisions and any use of the Government Purchase Card by anyone
other than the authorized cardholder. European Command Headquarters
should also review the 22 sample transactions that were not supported by
documentation.

        Management Comments. The Chief of Staff, European Command
generally agreed with the recommendation, except for the finding on the eight
televisions. However, he proposed that instead of the European Command
Headquarters Inspector General conducting the investigation, he would like the
flexibility to select someone on his staff to conduct any needed investigations.

        Audit Response. While we agree that the Commander, European
Command should be free to designate who should perform the reviews, we
believe that person should be independent of the Command staff. As a result, we
modified the recommendation above to say that “Commander, EUCOM designate
an independent party to investigate the purchase and accountability of the eight
televisions and any use of the Government Purchase Card by anyone other than
the authorized cardholder. European Command Headquarters should also review
the 22 sample transactions that were not supported by documentation.” We
request additional comments on the revised recommendation.

A.2. We recommend that the Commander of the U.S. Army Contracting
Command Europe:

       a. Institute, as part of the annual review of the Billing Official’s
records and procedures, a review of all original supporting documentation to
include receipts, logs, invoices, and approvals. These inspections should
ensure that GPC files are properly maintained.



                                    11
                                                                       Attachment
        Management Comments. The Head of Contracting Activity, Army
Contracting Command (Provisional), stated that billing officials are trained to
ensure that they are aware of their responsibility for retaining a copy of each
billing statement and maintaining all original supporting documentation. He
further stated that he believes AR 715-XX does not require a 100 percent review
of the original documents and noted that the regulation states that Level IV
Activity/Organization Purchase Coordinator should annually inspect a sample of
transactions of each billing official account. The Head of Contracting Activity
stated that hands-on inspections are preferred, but he believes that alternative
methods are allowable. Therefore, the Head of Contracting Activity believes that
based on risk and experience, RCO Seckenheim does not need to perform a 100
percent review of original documents.

        Audit Response. We consider the management comments to be
nonresponsive. We did not recommend a review of 100 percent of the
transactions. We recommended that reviews include all supporting
documentation for the transactions selected for review. We request that the Head
of Contracting Activity provide additional comments that specifically address the
intent of the recommendation.

       b. Maintain complete records of surveillance reviews performed and
the results.

       Management Comments. The Head of Contracting Activity, Army
Contracting Command (Provisional) concurred and stated that the RCO
Seckenheim has corrected the problem identified during the audit and that
complete surveillance records are being maintained.

       Audit Response. We consider the management comments to be
responsive and commend RCO Seckenheim for taking corrective actions.




                                    12
                                                                      Attachment
            B. Use of and Controls Over Official
               Representation Funds Transactions
            European Command Headquarters (EUCOM) did not follow established
            guidance for the use of Official Representation Funds for 39 of the 41
            purchases we reviewed. Specifically, EUCOM personnel did not verify
            the availability of funds prior to making purchases. Also, Official
            Representation Funds purchase card transactions were not properly
            documented and supported by EUCOM personnel in accordance with the
            Chairman of the Joint Chiefs of Staff Instruction and EUCOM policies
            and procedures. Additionally, although gift items were not part of our
            sample transactions, we observed during the testing of the Official
            Representation Funds process that EUCOM inappropriately retained 3,349
            gift items (valued at more than $28,000) in inventory. These conditions
            occurred because the Command Staff Protocol Office, the Deputy
            Commander’s Office, and the Comptroller’s Office did not properly
            monitor Official Representation Funds purchase cardholders’ transactions.
            EUCOM management needs to strengthen Official Representation Funds
            purchase controls and improve Official Representation Funds oversight to
            minimize the potential for improper and questionable use of Official
            Representation Funds.


Guidance on Use of Official Representation Funds
     DoD Directive 7250.13. DoD Directive 7250.13, “Official Representation
     Funds,” January 12, 2005, establishes policy, assigns responsibilities, and
     prescribes procedures for the use of appropriated funds for Official
     Representation Funds (ORF). It specifies that ORF are to be used to host official
     receptions, dinners, and similar events, and to otherwise extend official courtesies
     to guests of the U.S. and DoD for the purpose of maintaining standing and
     prestige. The use of ORF is supposed to be monitored closely to ensure that
     expenditures comply with socially accepted morals and that the policy objectives
     of the U.S. and the interests of the U.S. taxpayer are served. Records on the use
     of ORF are supposed to be maintained on a function-by-function basis to provide
     data on how and why these funds were used. DoD Directive 7250.13 requires the
     heads of DoD Components to budget and account for resources necessary to
     support their ORF requirements. In addition, the heads of DoD Components are
     to establish appropriate internal reporting systems so that the Components can
     perform a continuing review of the purposes for which ORF have been used
     within their respective commands.

     Chairman of the Joint Chiefs of Staff Instruction 7201.01A. Chairman of the
     Joint Chiefs of Staff Instruction (CJCSI) 7201.01A, “Combatant Commanders’
     Official Representation Funds,” February 7, 2006, requires the commanding
     officer (or authorized designee), the command protocol officer, the command


                                          13
                                                                             Attachment
   comptroller, and the command staff judge advocate to review the use of ORF to
   fund an event prior to its occurrence.

   Army Regulation 37-47. Army Regulation 37-47, “Representation Funds of the
   Secretary of the Army,” March 12, 2004, implemented DoD Directive 7250.13.
   Although this regulation is applicable only to the active Army, the Army National
   Guard, and the Army Reserves, the policies and procedures are based on the
   guidelines detailed in both DoD Directive 7250.13 and the CJCSI 7201.01A.

   EUCOM Directive 50-12. EUCOM Directive 50-12, “Comptroller -
   Administration of Representation Funds,” November 9, 1994, requires that
   EUCOM personnel and its subordinate levels apply internal management controls
   to financial, administrative, and operations activities to ensure reasonable
   safeguards against waste, loss, unauthorized use, or misappropriation of
   representation funds or other assets. In addition, expenditures must be certified
   by the approving official prior to submission of reimbursement vouchers. The
   directive also provides detailed guidance on the roles and responsibilities of
   EUCOM personnel who request the use of ORF.


EUCOM ORF Program
   The ORF Program should be handled by personnel from the Command Staff
   Protocol Office, Comptroller’s Office, the Deputy Commander’s Office, and
   Office of the Command Staff Judge Advocate. The following identifies the roles
   and responsibilities of the respective offices at EUCOM.

   Use of GPC for ORF Events. Staff Protocol Office personnel informed us that
   they rarely use the GPC for ORF events. Instead, ORF events were paid for on a
   cash basis (using checks issued against appropriated funds), and these
   transactions were not included in the GPC review.

   Use of GPC for ORF Gifts. Cardholders from the Staff Protocol Office and the
   Deputy Commander’s Office made purchases using the GPC for ORF gifts.
   Personnel in the Deputy Commander’s Office maintained the inventory of these
   gift purchases.

   Sources of ORF Funding. The Chairman of the Joint Chiefs of Staff provided
   funding for the ORF Program. In addition, EUCOM subordinate elements used
   Security Assistance Organization representation funds and Operations and
   Maintenance, Army representation funds as required.

   Comptroller’s Role and Responsibility. EUCOM Directive 50-12, section 7
   states that the comptroller is to provide guidance concerning the use of ORF,
   submit ORF requirements to the appropriate DoD activity during the budget
   cycle, and issue individual limitations to EUCOM and its subordinate elements
   for the use of ORF. The Directive also requires that the EUCOM Comptroller
   review the use and management of ORF during command inspections and other
   reviews. Likewise, CJCSI 7201.01A, enclosure A-2, paragraphs 1.d. (3) and (4)
   require the command comptroller to:

                                      14
                                                                         Attachment
           •   monitor ORF requests for compliance with guidance,

           •   forward the requests to the combatant commander and the Chairman of
               the Joint Chiefs of Staff, and

           •   review the use of ORF to fund an event prior to its occurrence.

    Command Staff Judge Advocate. CJCSI 7201.01A, Appendix B, paragraph 1
    states that the command staff judge advocate should be included in the review of
    the use of ORF prior to the event.


Monitoring of ORF Program at EUCOM
    The Command Staff Protocol Office, the Deputy Commander’s Office, and the
    Comptroller’s Office did not properly monitor ORF purchase cardholders. For 39
    of the 41 ORF GPC card purchases reviewed, personnel at EUCOM did not
    follow established guidance to ensure that:

           •   funds were available prior to the purchase,

           •   purchase requests were properly documented, and

           •   purchases were based on current year requirements.

    Verification of ORF Fund Availability. Documentation for the ORF purchase
    card transactions in our sample showed that all of the purchases occurred before
    the appropriate officials verified the availability of ORF funds to pay for the
    purchase. DoD Directive 7250.13, paragraph E.2.4.8 states: “Fund availability
    shall be verified before the use of ORF (preferably 10-15 days prior to the
    event).” Also, CJCSI 7201.01A, enclosure A-2, paragraph 1.d.(4) specifies that
    the combatant commander’s comptroller is to review each request for ORF prior
    to the scheduled event to ensure the availability of funds. EUCOM did not follow
    these procedures. As a result, EUCOM put itself at a greater risk of incurring a
    potential Antideficiency Act violation.

    Violations of the Antideficiency Act include obligations or expenditures in excess
    of the amount in the affected account, the amount apportioned, or the amount
    allotted. Section 1341(a)(1)(A), title 31, United States Code (31 U.S.C. 1341)
    prohibits making or authorizing an expenditure from, or creating or authorizing an
    obligation under, any appropriation in excess of the amount available. In
    addition, 31 U.S.C. 1341(a)(1)(B) prohibits involving the Government in any
    obligation to pay money before funds have been appropriated for that purpose.

    We asked EUCOM Comptroller personnel about the process for identifying ORF
    expenditures for gifts and how purchases occurred before the appropriate officials
    verified the availability of ORF funds to pay. Comptroller personnel stated that
    EUCOM ORF cardholders were using a GPC that was established through an
    Army appropriation, rather than the Defense, Operations and Maintenance
    appropriation provided by the Chairman of the Joint Chiefs of Staff. Therefore,

                                        15
                                                                          Attachment
until the cardholder notified them that an expenditure for ORF gifts had been
made, they would not know whether ORF funds were available and whether the
purchase was proper. Upon notification, a cost transfer had to be made to
correctly charge the right appropriation.

EUCOM Comptroller personnel provided documentation to substantiate their
ORF GPC purchases that identified only one cardholder. However, we noted that
two additional cardholders made ORF GPC purchases during the first quarter of
FY 2007, which increased the risk of overobligation and expenditure of ORF
funds. In addition, there were discrepancies in the dollar value charged to the
ORF account, including the failure to deobligate funds subsequent to an
expenditure. This also increased the risk of overobligation of funds and the
potential for an Antideficiency Act violation. These discrepancies were provided
to EUCOM for their review. Unless EUCOM cardholders are required to verify
the availability of ORF funds before making purchases and controls are improved
to ensure that all ORF GPC purchases are properly identified and recorded,
EUCOM will unnecessarily risk incurring a potential Antideficiency Act
violation.

Required Documentation. Our review of the 41 judgmentally selected ORF
purchase card transactions showed that EUCOM cardholders did not properly
document 34 of the transactions. The CJCSI 7201.01A, Appendix B, paragraph 1
requires the commanding officer (or authorized designee), the command protocol
officer, the command comptroller, and the command staff judge advocate to
review the use of ORF to fund an event prior to its occurrence. CJCSI 7201.01A
also specifies that “records concerning the use of ORF will be maintained on an
event-by-event basis to provide data on how and why these funds are used.” It
further states, “Records should document the purpose for which funds were used,
including names, titles, and the organizations of the persons attending.” To
ensure compliance with established procedures, EUCOM personnel who are
responsible for requesting obligations and expenditures for ORF events or gift
purchases need to provide complete details regarding their use. The following
table identifies the sample number and dollar amount of the transactions that were
not properly documented.




                                    16
                                                                      Attachment
          Table 3. ORF Transactions with Inadequate Documentation

                Sample No.   Amount (in dollars)       Sample No.   Amount (in dollars)
                  ORF 5              $    993.97                           $       75.00
                                                        ORF 30
                  ORF 8                    26.00                                    75.00
                                                        ORF 31
                 ORF 13                  1,934.98                                   75.00
                                                        ORF 32
                 ORF 14                  2,068.69                                   75.00
                                                        ORF 33
                 ORF 16                   325.51        ORF 34                      75.00

                 ORF 18                   170.00        ORF 35                      75.00

                 ORF 19                    75.00        ORF 36                      75.00
                                           75.00        ORF 37                      75.00
                 ORF 20
                                           75.00        ORF 38                      75.00
                 ORF 21
                                           75.00        ORF 39                    449.40
                 ORF 22
                                           75.00        ORF 43                    249.80
                 ORF 23
                                           75.00        ORF 44                    415.00
                 ORF 24
                                           75.00        ORF 50                   2,074.87
                 ORF 25
                                           75.00        ORF 54                    717.40
                 ORF 26
                                           75.00        ORF 72                    158.27
                 ORF 27
                                           75.00       EUCOM 191                 1,718.60
                 ORF 28
                                           75.00       EUCOM 193                  206.50
                 ORF 29
                                                   .     Total                 $13,008.99




     Current Year Requirements. The CJCSI 7201.01A specifies that ORF
     requirements are based on fiscal year use only, which would prohibit the use of
     current year funds to meet future year requirements. Of the 34 transactions with
     irregularities, all purchases were made to satisfy anticipated needs in future fiscal
     years


Inventory of Gift Items
     EUCOM maintained an excessive inventory of gift items for future use. As stated
     previously, the CJCSI 7201.01A specifies that ORF requirements are based on
     fiscal year use only, which would prohibit the use of current year funds to meet
     future year requirements. EUCOM’s gift locker list identified 3,349 gift items,
     valued at more than $28,000, that were being retained in inventory. None of these
     items were designated to be presented to a specific distinguished visitor or other
     dignitary in the near term. EUCOM needs to discontinue further purchases of
     gifts until the inventory is depleted and institute procedures to purchase items
     only when a specific need is identified. If a long lead time is required to purchase
     gifts for an event that will occur during the next fiscal year, EUCOM should
     request a waiver from the Chairman of the Joint Chiefs of Staff to get permission
     to use current fiscal year funds.



                                               17
                                                                                            Attachment
Summary
    EUCOM internal controls for ORF were not adequate for the purchases we
    reviewed. The primary control deficiency resulted from EUCOM personnel not
    requesting prior approval for expenditures and not ensuring adequate fund
    availability. The request for obligation of funds prior to expenditure needs to
    include all supporting documentation, as outlined in the CJCSI 7201.01A. In
    addition, EUCOM personnel need to take action to eliminate the excessive
    inventory of gift items and institute procedures to prevent the future purchase of
    items unless a specific need is identified.


Management Comments on the Finding
    Management Comments on Following Established Guidance. The Chief of
    Staff concurred that EUCOM did not follow established guidance governing ORF
    cardholders who were using GPCs established with an Army appropriation. He
    indicated that EUCOM has revised its ORF procedures to require prior approval
    of all expenditures and mandatory use of request forms.

    Management Comments on Proper Documentation. The Chief of Staff
    concurred with the finding. He stated that their ORF guidance dated March 21,
    2008, has been revised to include the ORF approval process.

    Management Comments on Inventory of Gift Items. The Chief of Staff
    concurred with comment to the finding. He stated that several factors contributed
    to the excessive inventory. EUCOM is coordinating with the Joint Chiefs of Staff
    and the Office of the Secretary of Defense for the removal of gift items that are
    considered obsolete.

    Management Comments on ORF Expenditure Process. The Chief of Staff
    concurred with the finding. He stated that the revised ORF expenditure approval
    procedures that were developed reinforce the Comptroller’s funds verification
    process.

    Management Comments on Number of ORF Cardholders. The Chief of Staff
    concurred with the finding. He stated that procedures have been implemented for
    one assigned ORF GPC cardholder, per the Deputy Commander’s Office and the
    Staff Protocol Office.

    Management Comments on Prohibited Use of Current Year Funds for
    Future Requirements. The Chief of Staff concurred with the finding. He stated
    that ORF gift cardholders have been provided instruction in accordance with Joint
    Chiefs of Staff and EUCOM revised guidance. The approval process will capture
    and reject any gift purchases to be used for future fiscal years. In addition,
    request forms will be utilized as required by current guidance.




                                         18
    Overall Audit Response. We agreed with all steps implemented by EUCOM
    concerning the overall ORF program. The completed or proposed actions are
    responsive and should improve the ORF program at EUCOM.


Recommendations, Management Comments and Audit
  Response
    B.1. We recommend that the Commander, European Command
    Headquarters:

          a. Direct Official Representation Fund cardholders to obtain
    authorization and approval for obligation and expenditures prior to a
    scheduled event.

          Management Comments. The Chief of Staff concurred with the
    recommendation and stated that new procedures have been implemented.

           b. Require all “Request for Obligation of Official Representation
    Funds” forms to include complete documentation and explanations for each
    event in accordance with the Chairman of the Joint Chiefs of Staff
    Instruction 7201.01A.

           Management Comments. The Chief of Staff concurred with the
    recommendation and stated that their guidance has been revised to reflect an
    improved approval process and to include new request forms that require amounts
    requested and method of payment.

            c. Require all Official Representation Funds cardholders to identify
    and make purchases of gifts to be given to distinguished visitors during the
    fiscal year of the visit.

           Management Comments. The Chief of Staff concurred with the
    recommendation and stated that procedures outlined in comments to the finding
    have been implemented.

            d. Request a waiver from the Chairman of the Joint Chiefs of Staff in
    the event that gifts are required within the first month of the subsequent
    fiscal year or there is a long lead time required for the gift purchase.

            Management Comments. The Chief of Staff concurred with the intent of
    the recommendation and stated that all unprogrammed requirements during the
    first month of the fiscal year will be submitted to the Chairman of the Joint Chiefs
    of Staff in accordance with current guidance.

            e. Direct the Command Staff Protocol Office to use all gifts in its
    inventory until the stockpile is depleted and prevent future stockpiling of
    gifts by making purchases only as needed.


                                         19
       Management Comments. The Chief of Staff concurred with the
recommendation and stated that the European Command regulations have been
revised to include no more than a 3-month supply of gifts on hand.

      f. Require the Comptroller to identify Official Representation Funds
cardholders and issue a purchase card with the applicable funding line of
accounting that is for Official Representation Funds use only.

      Management Comments. The Chief of Staff concurred with the
recommendation. He stated that the Comptroller has identified two Official
Representation Funds cardholders and that each cardholder has been provided a
Government Purchase card for Official Representation Funds use only.

B.2. We recommend that the Command Staff Protocol Office ensure that all
applicable requirements of DoD Directive 7250.13 and Chairman of the Joint
Chiefs of Staff Instruction 7201.01A are met prior to approving official
representation events.

        Management Comments. The Chief of Staff concurred with the
recommendation by stating that the procedures outlined in Recommendation B.1.a
and in the comments to the finding address this recommendation.

B.3. We recommend that the Government Purchase Card approving official
for Official Representation Funds reject all purchases made without prior
approval unless an immediate, official need is documented because of an
unannounced visit by an authorized distinguished visitor.

        Management Comments. The Chief of Staff concurred with the
recommendation. He stated that the approval process can be processed
electronically to shorten the process. The addition of blocks on the request form
to identify unprogrammed events and explain immediate expenditures for
unannounced visits by authorized distinguished visitors is responsive to this
recommendation.




                                    20
Appendix A. Scope and Methodology
   We conducted this performance audit from July 2007 through May 2008 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   Use of Technical Assistance. We requested European Command Headquarters
   (EUCOM) purchase card transactions from the DoD IG, Data Mining Directorate.
   They provided us with a universe of 4,025 purchase card transactions, valued at
   $2.434 million, made by 135 EUCOM cardholders from April 4, 2006 through
   April 30, 2007. We used the indicators provided by the Data Mining Directorate
   to identify transactions that were high-risk based on dollar amount, date of
   purchase, vendor, and other indicators of possible Government Purchase Card
   (GPC) misuse. Applying these indicators, we judgmentally selected
   278 transactions with a total value of $349,445. The 278 transactions were
   associated with 61 cardholders. In addition, we reviewed 41 Official
   Representation Funds transactions valued at $16,374. The 41 transactions were
   associated with 5 cardholders. Because the review was limited to a judgmental
   selection of transactions, we could not project our results over the entire
   population of purchase card transactions.

   We performed the audit at EUCOM, Patch Barracks, Stuttgart, Germany. Our
   objective was to evaluate the controls over the use of the GPC. We conducted
   interviews with EUCOM management personnel, individual cardholders,
   approving officials, and the Staff Judge Advocate. We also obtained relevant
   supporting documentation, including credit card statements, invoices, training
   records, and other documentation maintained by EUCOM. We reviewed DoD,
   Army, and EUCOM policies and regulations regarding responsibilities and
   procedures for the control and use of the GPC, as well as guidance issued by the
   Chairman of the Joint Chiefs of Staff.

   Use of Computer-Processed Data. We received computer-processed data for
   EUCOM from the DoD Office of Inspector General, Data Mining Directorate and
   the EUCOM GPC Program Manager. During the review, we established
   reliability by comparing the data to source documentation, such as receipts, credit
   card statements, approval documents, and contractual documents. The
   comparison disclosed that data were sufficient to support the conclusions.
   However, we did not perform any formal reliability assessment of the computer-
   processed data.

   Government Accountability Office High-Risk Area. The GAO has identified
   several high-risk areas in DoD. This report provides coverage of a DoD financial
   management high-risk area.



                                       21
Appendix B. Prior Coverage
    During the last 5 years, the Government Accountability Office (GAO) and the
    DoD Inspector General (DoD IG) have issued reports discussing DoD
    Government purchase card programs. Unrestricted GAO reports can be accessed
    at www.gao.gov and unrestricted DoD IG reports can be accessed at
    www.dodig.mil/audit/reports.

GAO
    Report No. GAO-04-156, “Purchase Cards: Steps Taken to Improve DoD
    Program Management but Actions Needed to Address Misuse,” December 2004

    Report No. GAO-04-430, “Contract Management: Agencies Can Achieve
    Significant Savings on Purchase Card Buys,” March 2004

    Report No. GAO-03-292, “Purchase Cards: Control Weaknesses Leave the Air
    Force Vulnerable to Fraud, Waste, and Abuse,” December 2002

    Report No. GAO-02-1041, “Purchase Cards: Navy is Vulnerable to Fraud and
    Abuse but is Taking Action to Resolve Control Weaknesses,” September 2002

    Report No. GAO-02-732, “Purchase Cards: Control Weaknesses Leave Army
    Vulnerable to Fraud, Waste, and Abuse,” June 2002

    Report No. GAO-02-506T, “Purchase Cards: Continued Control Weaknesses
    Leave Two Navy Units Vulnerable to Fraud and Abuse,” March 2002


DoD IG
    DoD IG Report No. D-2007-043, “Controls Over the Army, Navy, and Air Force
    Purchase Card Programs,” January 10, 2007

    DoD IG Report No. D-2006-124, “Management of the Purchase Card Program at
    the North American Aerospace Defense Command and United States Northern
    Command,” September 29, 2006

    DoD IG Report No. D-2004-104, “Purchase Card Use and Contracting Action at
    the U.S. Army Corps of Engineers, Louisville District,” July 27, 2004

    DoD IG Report No. D-2004-096, “Controls Over Purchase Cards at Naval
    Medical Center San Diego,” June 29, 2004

    DoD IG Report No. D-2004-076-T, “How to Save the Taxpayers Money Through
    Prudent Use of the Purchase Card,” April 28, 2004


                                     22
DoD IG Report No. D-2004-016, “Purchase Card Use at the Space and Naval
Warfare Systems Command, Information Technology Center, New Orleans,
Louisiana,” November 14, 2003

DoD IG Report No. D-2004-002, “Selected Purchase Card Transactions at
Washington Headquarters Services and Civilian Personnel Management Service,”
October 16, 2003

DoD IG Report No. D-2003-109, “Summary Report on the Joint Review of
Selected DoD Purchase Card Transactions, June 27, 2003




                                 23
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, U.S. Army Contracting Command Europe
Auditor General, Department of the Army

Combatant Commands
Commander, U.S. European Command
Inspector General, U.S. European Command

Non-Defense Federal Organization
Office of Management and Budget




                                          24
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      25
U.S. European Command Comments




                   27
28
29
30
31
32
33
34
35
Department of the Army Comments




                    37
38
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Patricia A. Marsh
James L. Kornides
John K. Issel
Clarence E. Knight III
Walter J. Carney
William C. Blouvet
Benjamin M. Howison
Ellen Kleiman-Redden
Karen M. Bennett
